February 27, 2009

DEBORAH M. GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

SUBJECT: Audit Report – Workplace Safety and Injury Reduction Goals in Selected
         Capital Metro Area Facilities (Report Number HM-AR-09-001)

This report presents the results of a review required by the Postal Accountability and
Enhancement Act (Postal Act of 2006)1 to identify the areas (facility locations) where the
U. S. Postal Service did not achieve its workplace injury reduction goals (Project
Number 08YG018HM000). Our objectives were to determine whether four mail
processing facilities in the Capital Metro Area achieved their injury reduction goals for
fiscal years (FY) 2007 and 2008 and whether there was adequate oversight to ensure
the facilities achieved their goals. The four facilities reviewed were the Curseen-Morris,
Dulles, and Southern Maryland Processing and Distribution Centers (P&DCs); and the
Washington Bulk Mail Center (BMC). See Appendix A for additional information about
this audit.

Conclusion

The four mail processing facilities achieved some of their FYs 2007 and 2008 injury
reduction goals; however, the achievements for three facilities were overstated for both
years, while the achievements for one facility were understated for both years.
Management at three of the four facilities also need to improve their leadership to
correct safety deficiencies. While the Northern Virginia Performance Cluster’s (PC)
oversight of the Dulles P&DC safety program was adequate, the Capital PC and Capital
Metro Area management did not adequately oversee safety and health programs at the
Curseen-Morris and Southern Maryland P&DCs, and the Washington BMC. In addition,
the Capital District did not recover $63,200 of continuation of pay (COP) from
employees, as required by Postal Service policy, after the Office of Workers’
Compensation Program (OWCP) denied the claims.2


1
  Public Law 109-435, Postal Accountability and Enhancement Act, December 20, 2006, required we review facility
achievements. In agreement with congressional staff, we issued the report Postal Service’s Workplace Safety and
Workplace-Related Injury Reduction Goals and Progress (Report Number HM-AR-07-002, dated May 16, 2007).
That report addressed the Postal Service’s nationwide goals. This report addresses facility goals.
2
  COP is an injured employee’s entitlement of pay for up to 45 days of disability or medical treatment following a
traumatic injury and pending the OWCP’s approval of the injury claim.
Workplace Safety and Injury Reduction Goals                                              HM-AR-09-001
 in Selected Capital Metro Area Facilities


Some Injury Reduction Goals Achieved

The four facilities achieved some of their FYs 2007 and 2008 injury reduction goals;
however, the goals were not established using the same criteria headquarters, the
areas, and the PCs used. As a result, the facilities’ achievements were over- or
understated for both years. We are not making a recommendation regarding this issue
at this time because management is reviewing how it sets motor vehicle accident (MVA)
frequency rate goals as part of the 2010 National Performance Assessment (NPA) goal
setting process. The results of that review may influence the goal-setting process in
other safety areas.

Achievement of Goals Depends on Management’s Leadership

A facility’s success in achieving injury reduction goals depends on management
implementing an effective safety and health program. The FY 2008 Safety and Health
Program Evaluation Guide (PEG) showed effective program and superior management
leadership at the Dulles P&DC, but significant program deficiencies at the Curseen-
Morris and Southern Maryland P&DCs and the Washington BMC. A current and former
plant manager agreed their success depended on management’s commitment to safety.
The former and other current plant managers also stated that turnover in key positions,
workhour reductions, and their focus on mail processing operations had an impact on
their ability to implement effective safety programs. In addition, declining resources
may make it difficult for managers to ensure PEG compliance, which could also reduce
the emphasis on safety.

The four plant managers also did not establish Plant Executive Safety and Health
Committees to monitor and review safety and health program activities, and some area
and district safety personnel did not complete required safety training.3 This occurred
because the plant managers were not aware of the requirement for the committees, and
the Capital Metro Area Human Resources (HR) Manager relied on PC safety managers
to ensure safety personnel completed training.

Management’s limited commitment to implementing safety and health programs at the
Curseen-Morris and Southern Maryland P&DCs and the Washington BMC may have
reduced credibility with employees and contributed to an increase in injuries and
illnesses (I&I) and workers’ compensation costs at these facilities. See Appendix B for
our detailed analysis of this topic.

During the audit, Capital and Northern Virginia PC Senior Plant Managers established
Plant Executive Safety and Health Committees at the Dulles, Curseen-Morris, and
Southern Maryland P&DCs and the Washington BMC for FY 2009. The Capital Metro
Area HR Manager also implemented a process on November 19, 2008, to track and
monitor area and district safety personnel attendance at core curriculum training.



3
    Employee and Labor Relations Manual (ELM) Issue 19, Section 812, Management Responsibilities, March 2008.


                                                        2
Workplace Safety and Injury Reduction Goals                                                 HM-AR-09-001
 in Selected Capital Metro Area Facilities


In addition to these actions, we recommend the Vice President, Capital Metro Area
Operations, direct the Capital District Senior Plant Manager to:

1. Correct deficiencies identified in the Fiscal Year 2008 Safety and Health Program
   Evaluation Guide evaluations for the Curseen-Morris and Southern Maryland
   Processing and Distribution Centers and the Washington Bulk Mail Center.

2. Leverage resources to ensure management implements and monitors safety and
   health programs at the Curseen-Morris and Southern Maryland Processing and
   Distribution Centers and the Washington Bulk Mail Center.

We also recommend the Vice President, Capital Metro Area Operations, direct the
Capital District Senior Plant Manager and Capital District Manager to:

3. Remind plant managers and facility safety personnel at the Curseen-Morris and
   Southern Maryland Processing and Distribution Centers and the Washington Bulk
   Mail Center, as appropriate, of their safety and health program responsibilities as
   outlined in Postal Service policies, and specify they will be held accountable for full
   compliance.

We recommend the Vice President, Capital Metro Area Operations:

4. Direct the Capital Metro Area Human Resources Manager to ensure area and
   district safety personnel receive the required safety core curriculum training as soon
   as possible.

5. Remind the Capital Metro Area Human Resources Manager and area safety
   managers, as appropriate, of their safety and health program responsibilities as
   outlined in Postal Service policies, and specify they will be held accountable for full
   compliance.

Oversight of Safety and Health Programs

Postal Service policy4 does not require headquarters’ oversight of facility programs.
This requirement rests with the areas and the PCs. However, according to a Safety and
Environmental Performance Management (SEPM) official, the headquarters’ electronic
Safety Toolkit (STK) provides quarterly email messages to district management
identifying facilities that are not meeting their accident reduction goals.

The Northern Virginia PC’s oversight of the Dulles P&DC safety program was adequate
and the facility achieved its FYs 2007 and 2008 injury reduction goals. However, the
safety and health programs at the Curseen-Morris and Southern Maryland P&DCs and
the Washington BMC did not always receive adequate oversight by the Capital Metro
Area and Capital PC and those facilities did not achieve some of their goals. This
occurred because management was not aware of the requirement to establish the Area
4
    ELM Issue 19, Section 813, Safety and Health Management Responsibilities, March 2008.



                                                         3
Workplace Safety and Injury Reduction Goals                                  HM-AR-09-001
 in Selected Capital Metro Area Facilities


Executive Safety and Health Committee, and the Capital District Executive Safety and
Health Committee did not focus on ensuring safety and health programs were fully
implemented. Improved oversight is important given the Postal Service’s financial
condition5 and workers’ compensation costs, which exceeded $1 billion in 2008. See
Appendix B for our detailed analysis of this topic.

During our audit, the Vice President, Capital Metro Area Operations, established a
Capital Metro Area Executive Safety and Health Committee to begin meeting in
FY 2009.

In addition to this action, we recommend the Vice President, Capital Metro Area
Operations, direct the Capital District Manager to:

6. Ensure Capital District Executive Safety and Health Committee members
   understand their roles and responsibilities as outlined in Postal Service policies,
   including monitoring and reviewing safety and health program activities to ensure
   goals and objectives are met.

We recommend the Vice President, Capital Metro Area Operations:

7. Remind the Capital District Manager, and the Senior Plant Manager of their safety
   and health program oversight responsibilities as outlined in Postal Service policies,
   and specify they will be held accountable for full compliance.

8. Determine if the findings in this report exist in the remaining Capital Metro Area
   Performance Clusters and, where necessary, take action to ensure management
   implements adequate controls.

Continuation of Pay Recoveries

We determined 21 Capital PC employees erroneously received $63,200 for COP in
FY 2007. The district did not recover overpayments when the OWCP denied the
workers’ compensation claims because new staff in the Capital District Health and
Resource Management (HRM) office were not aware of the requirement to track and
monitor COP.6 See Appendix B for our detailed analysis of this topic.

When we brought this to their attention, Capital District management took immediate
action to recover the $63,200 of COP. We will report these recoverable questioned
costs in our Semiannual Report to Congress.




5
    The Postal Service had a net loss of $2.8 billion in FY 2008.
6
    ELM Issue 19, Section 543.41, Continuation of Regular Pay, March 2008.


                                                         4
Workplace Safety and Injury Reduction Goals                              HM-AR-09-001
 in Selected Capital Metro Area Facilities



In addition to this action, we recommend the Vice President, Capital Metro Area
Operations, direct the Capital District Manager to:

9. Determine if continuation of pay was made to other Capital Performance Cluster
   employees whose workers’ compensation claims the Office of Workers’
   Compensation Programs denied during fiscal years 2007 and 2008, and make full
   recoveries where they find continuation of pay errors.

10. Remind the Health and Resource Management staff, as appropriate, of their
    continuation of pay recovery responsibilities as outlined in Postal Service policies,
    and specify they will be held accountable for full compliance.

Management’s Comments

Management agreed to implement all 10 recommendations. However, management
disagreed with several of our findings, including the monetary impact of $63,200.
Management stated that the correct amount is $60,685.22, and the use of recordable
accident goals instead of frequency rate goals does not result in over- and
understatements of the facilities’ achievements. Management’s comments, in their
entirety, are included in Appendix E.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and the corrective actions should
resolve the issues identified in the report. Our evaluation of management’s
disagreements with certain findings is included in Appendix F.

The OIG considers recommendations 1, 4, 6, 8, and 9 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                              5
Workplace Safety and Injury Reduction Goals                           HM-AR-09-001
 in Selected Capital Metro Area Facilities



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Chris Nicoloff, Director, Human
Capital, or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Anthony J. Vegliante
    Henry L. Dix
    Theresa Gibbs
    Katherine S. Banks




                                              6
Workplace Safety and Injury Reduction Goals                                                HM-AR-09-001
 in Selected Capital Metro Area Facilities


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is subject to the Occupational Safety and Health (OSH) Act of 1970
pursuant to the Postal Employees Safety Enhancement Act of 1998.7 The OSH Act
provides citations, penalties, and criminal referrals for employers who fail to comply.
The Occupational Safety and Health Administration (OSHA) is responsible for
promulgating and enforcing standards and regulations under the OSH Act.

The Postal Service has more than 700,000 employees located in over 36,000 facilities
nationwide. The agency considers these employees its most valued resource. To
minimize employee injury risk, managers at all levels are required to demonstrate a
commitment to provide safe and healthful working conditions by following safety
policies. Management at all levels is also responsible for ensuring the agency meets its
injury reduction goals by implementing safety and health programs in their jurisdiction.8

    •   The headquarters SEPM Office manages OSHA compliance activity and
        administers and evaluates the Postal Service’s national safety and health
        program.
    •   Area Vice Presidents, through their HR and safety managers, provide safety and
        health programs in their areas and ensure compliance with OSHA standards and
        regulations and national policy and direction.
    •   PC and facility managers implement safety and health programs in their
        jurisdiction to achieve the corporate objectives of reducing injuries, illnesses, and
        MVAs.
    •   PC safety managers and specialists report to the PC HR Manager and serve as
        technical advisors and consultants to management. PC safety specialists also
        conduct annual PEG evaluations at all facilities with 100 or more work years, to
        measure the effectiveness of the safety and health program and ensure OSHA
        compliance.

The NPA and the Pay-for-Performance (PFP) systems ensure that management at all
levels — including front-line supervisors — is responsible and held accountable for the
prevention of accidents, achieving OSHA I&I goals, and controlling losses.9




7
  The OSH Act states that employers shall furnish all employees a workplace free from recognized hazards that
cause or are likely to cause death or serious physical harm.
8
  ELM Issue 19, Sections 812, Management Responsibilities; 813, Safety and Health Staff Responsibilities; and 823,
Program Evaluations, March 2008.
9
  The NPA OSHA I&I indicator is a combination of the OSHA I&I frequency rate and the percentage improvement in
the frequency rate compared to the same period last year.


                                                        7
Workplace Safety and Injury Reduction Goals                                                   HM-AR-09-001
 in Selected Capital Metro Area Facilities



OSHA Injuries and Illnesses Frequency Rate and Reduction Goals

The OSH Act requires all federal agencies, including the Postal Service, to report all
recordable I&I to OSHA.10 The OSHA refers to this as the OSHA I&I frequency rate and
it represents the number of recordable OSHA I&I per 100 full-time employees for a
specific period of time.11 For example, a facility frequency rate of 4.4 means there were
4.4 accidents per 100 employees in that facility. The desire is for facilities to achieve a
rate that is “lower” than the goal. Management calculates the rate using an industry-
wide formula recommended by OSHA that provides the standard base for calculating
accident rates.12 It also provides a measurement that makes accident data for large
and small facilities comparable.

The Postal Service Establish Committee sets the corporate OSHA I&I frequency rate
reduction goal annually.13 This goal represents what the Postal Service hopes to
achieve as a nationwide average. In FYs 2007 and 2008, the Postal Service goals were
5.5 and 5.4, respectively. These rates represented a 0.1 (1/10th basis point) reduction to
the OSHA I&I frequency rate for the same period last year (SPLY). The Postal Service
SEPM Office established the area frequency rate goals, and the areas established the
PC goals. The area and PC OSHA I&I frequency rate goals varied but were established
to help achieve the nationwide goal. Facility goals, however, were established by the
PCs as reductions to the number of OSHA I&I recordable accidents.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether four selected mail processing facilities in the
Capital Metro Area were successful in meeting their injury reduction goals for FYs 2007
and 2008, and whether management provided adequate oversight to ensure the
facilities achieved their goals.

To accomplish our objectives, we interviewed Postal Service officials to gain an
understanding of their roles and responsibilities and the processes and procedures
used for safety and health programs. We also examined applicable Postal Service
policies and procedures, the OSH Act, the Postal Employees Safety Enhancement Act
of 1998, and the Postal Act of 2006.


10
   An injury or illness is recordable if it (1) results in death, days away from work, restricted work or job transfer,
medical treatment beyond first aid, or loss of consciousness; and/or (2) involves a significant injury or illness
diagnosed by a physician or other licensed health care professional, even if it does not result in the aforementioned
situations.
11
   OSHA defines an injury as any wound or damage to the body resulting from an event in the work environment; and
an illness (produced by the work environment) as both acute and chronic such as, but not limited to, skin diseases,
respiratory disorders, or poisonings.
12
   The formula is the total number of OSHA I&I multiplied by 200,000 hours, divided by the number of exposure hours
worked by all employees. The 200,000 hours represent 100 employees working 2,000 hours per year. The term
exposure refers to those hours employees worked (it excludes hours for leave, such as annual and sick leave).
13
   The Establish Committee is comprised of the Deputy Postmaster General and functioning headquarters Vice
Presidents.


                                                           8
Workplace Safety and Injury Reduction Goals                                          HM-AR-09-001
 in Selected Capital Metro Area Facilities


To determine which area to review, we compared the FY 2006 OSHA I&I frequency
rates for the Postal Service’s nine areas to their FY 2007 frequency rates, and selected
the Capital Metro Area because it was one of two areas that showed the most
improvement from the previous year.14 We selected an area with the most improved
OSHA I&I frequency rate to potentially identify best practices for reducing I&I that could
be shared. To determine which facilities to review, we compared the FY 2006 OSHA
I&I frequency rates for the Capital Metro Area mail processing facilities to their FY 2007
frequency rates. We selected the Curseen-Morris and Dulles P&DCs (two of the most
improved frequency rates) and the Southern Maryland P&DC and Washington BMC
(two of the least improved frequency rates). We reviewed mail processing facilities
because they are large, have more employees and equipment, and process more mail
than post offices or branches.

To determine if the four mail processing centers achieved their injury reduction goals,
we compared the facilities’ FYs 2007 and 2008 OSHA I&I recordable accident and
frequency rate goals to the OSHA I&I recordable accidents and frequency rates
achieved. We determined the frequency rate goals by converting the recordable
accidents goals using the OSHA-recommended industry-wide formula that provides a
standard base for calculating accident rates and a measurement that makes accident
data for large and small facilities comparable. We obtained the recordable accidents
goals from the Capital and Northern Virginia PCs, and the OSHA I&I recordable
accidents and frequency rates achieved for both fiscal years from the Postal Service’s
Web Enterprise Information System (WebEIS). We could not verify the OSHA I&I
recordable accident goals provided by the PCs with headquarters and the Capital Metro
Area because officials at those levels provided different goals for the four facilities.
Since the PCs were responsible for setting the goals for the facilities, we used the goals
they provided which were the rates achieved in the SPLY. We did not analyze or
provide an opinion on the Capital and Northern Virginia PC’s use of the SPLY as their
goals for the next year or the feasibility of those goals in relationship to the
headquarters, area, and PC goals because management is reviewing how it sets MVA
goals and that review may influence the goal-setting process.

To determine why the four facilities were successful or not in achieving their injury
reduction goals, we interviewed various facility, area, PC, and district personnel
including safety managers and plant managers. In addition, we reviewed safety-related
documents obtained from the Risk Management Reporting System (RMRS), the NPA
system, the Injury Compensation Performance Analysis System (ICPAS), and the
electronic STK. We also reviewed various data and information pertaining to the
headquarters, area, PC, and facility safety and health program activities including
accident reduction plans (ARP)15 and PEG evaluations.

To determine the potential monetary effect of not achieving OSHA I&I injury reduction
goals, we used the ICPAS and Payroll System to determine FYs 2007 and 2008 OWCP

14
  The Pacific Area was the other area.
15
  We did not review the Curseen-Morris P&DC FY 2007 ARP because it was deleted when the electronic STK was
updated in FY 2008 and the facility did not maintain a hard copy.


                                                     9
Workplace Safety and Injury Reduction Goals                                            HM-AR-09-001
 in Selected Capital Metro Area Facilities


and COP costs for the four facilities. We then identified the total number of recordable
accidents from the RMRS, for each facility for the same fiscal years and determined the
average OWCP and COP cost per recordable accident at each facility. We multiplied
the increase or decrease in recordable accidents at each facility by the average per
accident cost to determine the potential savings or costs from the increases and
decreases in accidents.

When reviewing the COP costs we identified 28 employees who received COP
payments in FY 2007 for non-recordable FY 2007 accidents. This indicated the OWCP
did not approve the accidents, thus the COP was made in error. Further analysis of the
payments revealed the OWCP denied 21 of the 28 claims; therefore, the district should
have recovered the COP.

To determine if oversight at the headquarters, area, and PC levels was adequate to
ensure the four mail processing facilities achieved their OSHA I&I reduction goals, we
compared the oversight activities in place at each level to Postal Service policies and
procedures regarding oversight of the safety and health program. We identified the
oversight activities in place through interviews with Postal Service officials and
documents provided by those officials.

Data Reliability Testing

We did not test the reliability of the FYs 2007 and 2008 OSHA I&I data and instead
relied on the internal controls and data reliability testing conducted during the audit titled
Postal Service’s Workplace Safety and Workplace-Related Injury Reduction Goals and
Progress (Report Number HM-AR-07-002, dated May 16, 2007). That audit determined
the controls in place provided sufficient basis to rely on the OSHA I&I data extracted
from the Enterprise Data Warehouse and WebEIS.

We also did not test the validity of the FYs 2007 and 2008 OSHA I&I accident data in
the RMRS for the Capital and Northern Virginia PCs. Instead, we relied on the OSHA
I&I recordkeeping reviews performed by Capital Metro Area and Northern Virginia and
Capital District personnel which represented reviews of 100 percent of the accidents at
the four facilities. The purpose of the reviews was to verify that accurate injury and
illness recordkeeping procedures were universally applied and maintained throughout
the organization. In addition, we did not test the controls over the data obtained from
the Payroll System for our analysis of the OWCP and COP costs because previous OIG
reviews did not reveal weaknesses in the system.16

We conducted this performance audit from February 2008 through February 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate

16
   Fiscal Year 2007 Postal Service Financial Statements Audit – Eagan Information Technology and Accounting
Service Center (Report Number FT-AR-08-007, dated February 8, 2008) and Fiscal Year 2007 Information Systems
General Computer Controls Capping Report (Report Number IS-AR-08-007, dated March 11, 2008).


                                                     10
Workplace Safety and Injury Reduction Goals                          HM-AR-09-001
 in Selected Capital Metro Area Facilities


evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on December 15 and 18, 2008, and included
their comments where appropriate.

                                   PRIOR AUDIT COVERAGE

In the past 3 years, the OIG issued one report regarding the Postal Service’s workplace
injury reduction goals. The OIG report titled Postal Service’s Workplace Safety and
Workplace-Related Injury Reduction Goals and Progress (Report Number HM-AR-07-
002, dated May 16, 2007) stated the Postal Service established and exceeded its
national OSHA I&I reduction goals for FYs 2005 and 2006, and identified opportunities
for making further progress in meeting its goals. It also stated there may be a
corresponding reduction in the total accident and OSHA I&I costs but the Postal Service
does not capture individual accident costs. Management concurred with the issues
identified in the report and agreed with the recommendation to capture costs.




                                              11
Workplace Safety and Injury Reduction Goals                                            HM-AR-09-001
 in Selected Capital Metro Area Facilities


                              APPENDIX B: DETAILED ANALYSIS

Some Injury Reduction Goals Achieved

The four facilities achieved some of their FYs 2007 and 2008 injury reduction goals;
however, the goals were not established using the same criteria headquarters, the
areas, and the PCs used. As a result, the facilities’ achievements were over- or
understated for both years.

The Capital and Northern Virginia PCs established facility goals using a reduction to the
number of OSHA I&I recordable accidents for the SPLY instead of the OSHA I&I
frequency rate headquarters, the area, and the PCs used. The two goals differ in that
the recordable accidents goals did not include the actual increases or decreases in the
facilities’ exposure hours. This is a significant part of the OSHA I&I frequency rate
recommended by OSHA. The effect of using the recordable accident goals versus the
frequency rate goals is that the Curseen-Morris and Southern Maryland P&DCs and
Washington BMC’s achievements were overstated for both years, while the Dulles
P&DC’s achievements were understated. For example, the Washington BMC missed
its FY 2008 recordable accident goal by 2 percent, and its frequency rate goal by 9
percent. For the same period, the Dulles P&DC exceeded its recordable accident goal
by 4 percent, and its frequency rate goal by 8 percent. See Appendix C for the different
goals and rates achieved for the four facilities.

The Capital and Northern Virginia PCs used the OSHA I&I recordable accident goal
because headquarters’ policy required it.17 We believe, however, that the OSHA I&I
frequency rate is more appropriate to use when determining a facility’s success for the
following reasons.

     •   Headquarters, the areas, and the PCs use it to determine accident reduction
         success.
     •   It is an OSHA-recommended, industry-wide formula that includes the actual
         increases or decreases in the facilities’ exposure hours; provides a standard
         base for calculating accident rates; and provides a measurement that makes
         accident data for large and small facilities comparable.
     •   It is part of the NPA and PFP systems to ensure manager accountability.
     •   It is easily obtained from the WebEIS.

Achievement of Goals Depends on Management Leadership

Regardless of which injury reduction goal a facility uses, their success in achieving the
goal depends on management implementing an effective safety and health program.




17
  FYs 2007 and 2008 Accident Reduction Plan Policy Letters dated October 6, 2006, and September 28, 2007,
respectively.


                                                      12
Workplace Safety and Injury Reduction Goals                                                 HM-AR-09-001
 in Selected Capital Metro Area Facilities


The Postal Service PEG that illustrates management leadership as one of the two most
important elements of an effective safety program supports this idea.18

Management needs to improve its leadership at three of the four facilities. Specifically,
the FYs 2007 and 2008 PEG evaluations for the Dulles P&DC indicated superior and
model management leadership of the safety programs and successful program
implementation. The Dulles P&DC Plant Manager confirmed their success was due to
management’s strong commitment to safety, including the implementation of safety
initiatives not required by Postal Service policy.

The FY 2007 PEG evaluation for the Curseen-Morris P&DC’s safety and health program
also showed successful program implementation and sufficient management
leadership. However, significant deficiencies existed in two of the safety categories —
Inspection and Hazard Control, and Emergency Preparedness and First Aid. The PEG
evaluation indicates this occurred because P&DC’s management did not abate safety
and health inspection deficiencies within 20 days and did not include all required
categories in the emergency action plan. In FY 2008, the P&DC’s entire safety and
health program was found significantly deficient, including the Management Leadership
subcategory.19 The Curseen-Morris P&DC former Plant Manager said their success in
FY 2007 was due to management’s commitment to the safety program, while the goal
was not achieved in FY 2008 due to turnover in several key management positions.

The Southern Maryland P&DC’s and the Washington BMC’s FY 2007 PEG evaluations
also showed that their safety programs overall were compliant, but that significant
deficiencies existed, including management’s leadership. The FY 2008 safety and
health programs at both facilities were also significantly deficient, indicating little to no
management involvement in the programs. For example, management did not
participate in the safety and health inspections at the plants. We also noted this
deficiency existed in both facilities since FY 2006, with no improvements from year to
year. The Washington BMC Plant Manager stated that high turnover in the plant
manager position had an impact on their ability to successfully implement their program.
The Plant Manager also said that workhour reductions due to the BMC’s closure on
weekends also affected achievement of their frequency rate goals. The Southern
Maryland P&DC and Washington BMC Plant Managers told us they did not achieve
their FYs 2007 and 2008 OSHA I&I goals because their focus and commitment was on
mail processing operations. See Appendix D for additional analysis of the FYs 2007
and 2008 PEG evaluations.

We also determined that some performance indicators tracked annually for the Postal
Service’s NPA may have provided minimal incentive for plant managers and

18
   The Management Leadership and Employee Participating PEG category contains four subcategories: Management
Leadership, Employee Participation, Safety Program Implementation, and Contractor Safety. If the Management
Leadership or Employee Participation subcategory scores are lower than the average of all four categories, the lower
score is assigned to the entire category.
19
   The Capital District Senior Plant Manager, the Northern Virginia District HR Manager, and the current SEPM
Director told us the decline in FY 2008 PEG scores was because facilities did not comply with new requirements that
additional data and supporting documentation be entered into the STK.


                                                        13
Workplace Safety and Injury Reduction Goals                                                  HM-AR-09-001
 in Selected Capital Metro Area Facilities


supervisors to improve their OSHA I&I frequency rates and PEG scores. For example,
in FY 2008, managers could receive an acceptable PFP score even though their PC’s
OSHA I&I frequency rate was 6.1 and no more than a 3 percent increase (more
accidents) compared to the SPLY. In addition, FY 2008 NPA performance indicators for
OSHA I&I frequency rates were weighted significantly less (6 percent) than the mail
processing operations indicators (20 percent) when determining a facility manager’s
PFP score. Also in FY 2008, facility PEG scores were removed as an NPA
performance indicator for plant managers and supervisors because, according to the
Manager, Field Operations Requirements and Planning, facilities were consistently
achieving their safety goals and other indicators considered more important were
added. The SEPM Director believes this will result in less incentive for plant managers
and supervisors to maintain effective safety programs and believes the Postal Service
will not sustain the gains made in accident reduction rates over the last 7 years.20 The
Director also indicated that declining resources will make it difficult for managers to
ensure PEG criteria is followed which could also result in less emphasis placed on
safety.

Further, plant managers did not establish Plant Executive Safety and Health
Committees, as required, to monitor and review safety and health program activities,
because they were not aware of the requirement to do so. In addition, some area and
district safety personnel did not complete required safety training to ensure the
successful implementation of safety programs. For example, the Capital Metro Area
xxxxxxxxxxxxxx did not complete five of the eight required courses in the safety training
core curriculum (including the Safety Program Management course). This occurred
because the Capital Metro Area xxxxxxxxxx did not track and monitor the completion of
required training for safety personnel and instead relied on PC safety managers to
ensure employees completed training.

Management’s limited commitment to fully implementing safety and health programs at
the Curseen-Morris and Southern Maryland P&DCs and the Washington BMC may
have reduced credibility with employees and contributed to an increase in I&I and
workers’ compensation costs at these facilities. For example, employee responses to
10 safety-related questions in FYs 2007 and 2008 Voice of the Employee Surveys
indicated numerous employees at all four facilities perceived there were safety issues
supervisors were not addressing.

In addition, as shown in Table 1, the Curseen-Morris and Dulles P&DCs potentially
saved $65,884 and $14,608, respectively, in FY 2007 OWCP and COP costs when they
decreased the number of OSHA I&I recordable accidents from FY 2006. The Southern
Maryland P&DC and Washington BMC, however, saw a potential increase of $27,234
and $17,024, respectively, due to an increased number of recordable accidents for the
same time period. In FY 2008, the Dulles and Southern Maryland P&DCs potentially
saved $2,547 and $5,436, respectively, in OWCP and COP costs. The Curseen-Morris
P&DC and Washington BMC had a potential increase of $36,860 and $3,708,
respectively, for the same period.
20
     Since 2001, the Postal Service reduced the total number of OSHA I&Is by 31,680, a 44.7 percent reduction.


                                                          14
Workplace Safety and Injury Reduction Goals                                             HM-AR-09-001
 in Selected Capital Metro Area Facilities



             Table 1. Estimated FYs 2007 and 2008 OWCP and COP Costs
             From Increases/Decreases in OSHA I&I Recordable Accidents

                             FY 2007    Increase/   Estimated   FY 2008    Increase/                 Estimated
                             Average Decrease in OWCP and       Average Decrease in                 OWCP and
                             Cost per   Accidents COP Cost      Cost per Accidents                   COP Cost
                             OSHA I&I     from      Increase/   OSHA I&I     from                    Increase/
                            Recordable FYs 2006 to Decrease in Recordable FYs 2007 to               Decrease in
         Facility            Accident     2007      Accidents   Accident     2008                    Accidents

 Curseen-Morris P&DC       $4,706               -14        ($65,884)       $3,686          10          $36,860
 Dulles P&DC               $1,328               -11        ($14,608)       $2,547          -1          ($2,547)
 Southern Maryland P&DC    $4,539                 6         $27,234        $2,718          -2          ($5,436)
 Washington BMC            $4,256                 4         $17,024        $3,708           1           $3,708
Source: ICPAS, RMRS, and Payroll System

Corrective Actions

During our audit, Capital and Northern Virginia PC Senior Plant Managers established
Plant Executive Safety and Health Committees at the Dulles, Curseen-Morris, and
Southern Maryland P&DCs and the Washington BMC for FY 2009. In addition, on
November 19, 2008, the Capital Metro Area HR Manager implemented a process to
track and monitor area and district safety personnel attendance at core curriculum
training to ensure compliance.

Oversight of Safety and Health Programs

Postal Service policy does not require headquarters’ oversight of facility programs. This
requirement rests with the areas and the PCs. However, the headquarters’ electronic
STK provides quarterly email messages to district management identifying facilities that
are not meeting their reduction goals.

The Northern Virginia PC’s oversight of the Dulles P&DC safety program was adequate
and the facility achieved its FYs 2007 and 2008 injury reduction goals. However, the
safety and health programs at the Curseen-Morris and Southern Maryland P&DCs and
the Washington BMC did not always receive adequate oversight by the Capital Metro
Area and Capital PC and the facilities did not achieve some goals.

The Capital Metro Area did not establish an Area Executive Safety and Health
Committee, as required, to monitor and review safety and health program activities and
to ensure that area facilities met their goals and objectives.21 Both the Capital and
Northern Virginia PCs established District Executive Safety and Health Committees;
however, the Capital PC’s committee was not effective because it did not focus on
ensuring safety and health programs were fully implemented and facilities were
achieving their goals. For example, significant deficiencies identified in the Curseen-

21
  ELM Issue 19, Section 812, Management Responsibilities, and Section 815.12, Area Executive Safety and Health
Committee, March 2008.


                                                      15
Workplace Safety and Injury Reduction Goals                                                   HM-AR-09-001
 in Selected Capital Metro Area Facilities


Morris and Southern Maryland P&DCs’ and Washington BMC’s PEG evaluations were
not abated. Other important items not addressed were the status of safety and health
training and recordkeeping requirements (such as documenting accident reviews and
safety training).

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx told us she was not aware of the requirement to
establish an Area Executive Safety and Health Committee, and instead relied on PC
safety managers to ensure facilities were achieving goals and completing all required
elements of their safety and health programs. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxx did not establish an area committee because xxx focused on
staffing and training three new districts added to the area in April 2006 to manage their
safety and health programs.

Improvements in oversight by Capital Metro Area and Capital PC managers could
improve employee perceptions of safety in their work environments, reduce accidents
and illnesses, improve OSHA I&I rates, and decrease workers’ compensation costs.
This is particularly important given the Postal Service’s financial condition and the
increase in workers’ compensation costs, which exceeded $1 billion in 2008. The
increased costs are due in large part to higher medical and prescription costs and
increases in the cost of living allowance and Department of Labor administrative fee. It
is also due to an increase (the first in 6 years) of 1,808 workers’ compensation cases
from last year. The Postal Service estimates its future liability for workers’
compensation costs will be approximately $8 billion at the end of 2008.22

Corrective Actions

During our audit, the Vice President, Capital Metro Area Operations, established a
Capital Metro Area Executive Safety and Health Committee to begin meeting in
FY 2009.

Continuation of Pay Recoveries

We determined 21 Capital PC employees erroneously received $63,200 for COP in
FY 2007. The district did not recover the overpayments when the OWCP denied the
workers’ compensation claims because new Capital District HRM personnel were not
aware of the requirement to track and monitor COP.

Postal Service policy states that if an employee receives COP and the OWCP
subsequently denies the claim, the agency must recover the COP and give the
employee the option of converting the amount to sick and/or annual leave used or have
their payroll adjusted.




22
  The Postal Service records in its financial statements the present value of all future payments it expects to make to
employees receiving workers’ compensation.


                                                          16
Workplace Safety and Injury Reduction Goals                           HM-AR-09-001
 in Selected Capital Metro Area Facilities



Corrective Actions

When we identified this issue, the Capital District HRM Manager took immediate action
to recover the COP. Specifically, the manager notified the 21 employees by letter that
they were not entitled to the $63,200 in COP that we identified. Employees were given
the opportunity to convert the COP to either sick and/or annual leave used or have their
payroll adjusted. While we noted the action taken on this issue, we will report this
monetary impact as $63,200 of recoverable questioned costs in our Semiannual Report
to Congress.




                                              17
       Workplace Safety and Injury Reduction Goals                                  HM-AR-09-001
        in Selected Capital Metro Area Facilities


                APPENDIX C: FACILITY OCCUPATIONAL SAFETY AND HEALTH
              ADMINISTRATION INJURIES AND ILLNESSES FREQUENCY RATES,
             RECORDABLE ACCIDENT REDUCTION GOALS, AND RATES ACHIEVED

                   Table 2. FYs 2007 and 2008 Facility OSHA I&I Frequency Rate
                                    Goals and Achievements

                                                         Percentage                                 Percentage
                              FY 2007                     Difference      FY 2008                   Difference
                             OSHA I&I       FY 2007        Between       OSHA I&I       FY 2008      Between
                            Frequency       OSHA I&I        FY 2007     Frequency      OSHA I&I      FY 2008
                               Rate        Frequency      Frequency         Rate       Frequency    Frequency
                            Reduction         Rate      Goal and Rate Reduction           Rate     Goal and Rate
         Facility              Goal         Achieved       Achieved         Goal       Achieved      Achieved
Curseen-Morris P&DC             4.24          3.15             26           3.15          4.77          -51
Dulles P&DC                     5.95          4.03             32           4.03          3.72            8
Southern Maryland P&DC          3.80          4.95            -30           4.95          4.99           -1
Washington BMC                  4.59          5.77            -26           5.77          6.28           -9
Source: WebEIS as of March 4, 2008 (for FYs 2006 and 2007) and November 6, 2008 (for FY 2008).




         Table 3. FYs 2007 and 2008 Facility OSHA I&I Recordable Accident Reduction
                                  Goals and Achievements

                                                           Percentage                                 Percentage
                                                           Difference                                 Difference
                              FY 2007                       Between        FY 2008                     Between
                              OSHA I&I       FY 2007        FY 2007        OSHA I&I     FY 2008        FY 2008
                             Recordable      OSHA I&I      Recordable     Recordable    OSHA I&I      Recordable
                              Accident      Recordable    Accident Goal    Accident    Recordable    Accident Goal
                             Reduction      Accidents       and Rate      Reduction    Accidents       and Rate
         Facility               Goal         Achieved       Achieved         Goal       Achieved       Achieved
Curseen-Morris P&DC              45             31              31            31           41             -32
Dulles P&DC                      35             24              31            24           23               4
Southern Maryland P&DC           30             36             -20            36           34               6
Washington BMC                   38             42             -11            42           43              -2
Source: RMRS

Note: A negative percentage in both tables indicates a goal not achieved.




                                                         18
       Workplace Safety and Injury Reduction Goals                                                HM-AR-09-001
        in Selected Capital Metro Area Facilities


              APPENDIX D: CAPITAL METRO AREA SELECTED MAIL PROCESSING
               FACILITIES’ FYS 2006 THROUGH 2008 PEG EVALUATION SCORES23

                                                Curseen-                Dulles            Southern                Washington
          PEG Categories                       Morris P&DC              P&DC            Maryland P&DC               BMC
              FY 2006
1. Management Leadership and
   Employee Participation                            4.00                 4.00                  2.00                    2.00
2. Workplace Analysis                                4.67                 4.33                  3.67                    3.67
3. Accident and Record Analysis                      4.00                 4.00                  5.00                    5.00
4. Hazard Prevention and Control                     4.71                 3.00                  4.50                    4.12
5. Emergency Response                                4.50                 5.00                  5.00                    5.00
6. Safety and Health Training                        5.00                 4.00                  5.00                    5.00
7. Motor Vehicles                                    3.00                 3.00                  3.50                    3.50
      Overall Average Scores                         4.27                 3.90                  4.10                    4.04

              FY 2007
1. Management Leadership and
   Employee Participation                            3.00                 4.00                  2.00                    2.00
2. Workplace Analysis                                3.33                 3.67                  3.33                    3.33
3. Accident and Record Analysis                      5.00                 5.00                  4.00                    4.00
4. Hazard Prevention and Control                     5.00                 3.00                  3.06                    3.34
5. Emergency Response                                2.00                 4.00                  4.00                    4.00
6. Safety and Health Training                        3.00                 4.00                  4.00                    4.00
7. Motor Vehicles                                    4.00                 5.00                  3.50                    3.50
      Overall Average Scores                         3.62                 4.10                  3.41                    3.45

              FY 2008
1. Management Leadership and
   Employee Participation                            1.00                 4.00                  1.00                    1.00
2. Workplace Analysis                                1.00                 4.33                  2.00                    2.33
3. Accident and Record Analysis                      1.00                 5.00                  2.00                    2.00
4. Hazard Prevention and Control                     3.00                 3.90                  2.30                    2.78
5. Emergency Response                                1.00                 4.00                  1.00                    1.00
6. Safety and Health Training                        2.00                 5.00                  2.00                    2.00
7. Motor Vehicles                                    1.50                 3.50                  1.50                    1.00
8. Accident Prevention                               1.00                 1.00                  1.00                    2.00
      Overall Average Scores                         1.44                 3.84                  1.60                    1.76

       Source: STK


       23
          A facility’s PEG score is based on a thorough evaluation of 18 PEG safety program elements. Each element
       receives a numerical score that corresponds to a PEG standard level of performance. The overall score indicates the
       status of the safety and health program. In FY 2007 the scores were: 5 = Outstanding, 4 = Superior, 3 = Basic,
       2 = Developmental, and 1 = Ineffective or No Program. The scoring was modified in FY 2008 to: 5 = Model Program,
       4 = Superior Program, 3 = ELM-Compliant Program, 2 = Developmental Program, and 1 = No Program.


                                                               19
Workplace Safety and Injury Reduction Goals                HM-AR-09-001
 in Selected Capital Metro Area Facilities


                       APPENDIX E: MANAGEMENT’S COMMENTS




                                              20
Workplace Safety and Injury Reduction Goals        HM-AR-09-001
 in Selected Capital Metro Area Facilities




                                              21
Workplace Safety and Injury Reduction Goals        HM-AR-09-001
 in Selected Capital Metro Area Facilities




                                              22
Workplace Safety and Injury Reduction Goals        HM-AR-09-001
 in Selected Capital Metro Area Facilities




                                              23
Workplace Safety and Injury Reduction Goals        HM-AR-09-001
 in Selected Capital Metro Area Facilities




                                              24
Workplace Safety and Injury Reduction Goals        HM-AR-09-001
 in Selected Capital Metro Area Facilities




                                              25
Workplace Safety and Injury Reduction Goals        HM-AR-09-001
 in Selected Capital Metro Area Facilities




                                              26
Workplace Safety and Injury Reduction Goals                             HM-AR-09-001
 in Selected Capital Metro Area Facilities



            APPENDIX F. EVALUATION OF MANAGEMENT’S COMMENTS

The following are our responses to management’s areas of disagreement with the
issues presented in the report.

Management asserted that the FY 2007 recoverable COP costs should total
$60,685.22, excluding $2,514.78 because the Capital District recovered it. However,
the amount was not recovered until after we brought the issue to their attention.
Therefore, the total recoverable amount is $63,200.

Management stated that the SEPM Office did not establish area frequency rate goals,
based on their own admission that areas were provided with a floor (minimum) for their
OSHA I&I frequency rate goal. We agree that the areas could set higher goals than
those established by headquarters.

Regarding management’s belief that it is not possible to use the OSHA I&I frequency
rate (actual increases or decreases in exposure hours) when setting facility safety
goals, we do not agree for the reasons explained in the report. Specifically,
headquarters, the areas, and the PCs use the rate; it is OSHA recommended and part
of the NPA and PFP systems; and it is easily obtained from the WebEIS.

Management indicated that annual facility targets for accident reduction were
established using the Accident Reduction Planning Tool (ARPT). However, none of the
officials at the four facilities we visited, the Capital and Northern Virginia PCs, the
Capital Metro Area, or the SEPM Office, provided us with documentation that ARPTs
were used to establish accident reduction goals at the four facilities. In fact, the audit
report states that we could not verify the accident goals established by the PCs with
headquarters or the area because officials at those levels provided different goals for
the four facilities.

Management believed that using number of accident goals instead of frequency rate
goals does not result in over- and understatements of the facilities’ achievements.
However, as stated in the report, the Postal Service uses the OSHA I&I frequency rate
when reporting I&I to OSHA. The intent of the OSHA I&I frequency rate is to provide a
standard base for calculating accident rates and provide a measurement that makes
accident data for large and small facilities comparable. When different measurements
are used, the intent of the recommended measurement is lost. In this case, Appendix C
shows the over- and understatements.

Regarding management’s position that supervisors, facility managers, and employees
can more easily understand a reduction target expressed in numbers rather than an
abstract rate reduction, it may be more beneficial to educate these individuals on the
intent and use of the OSHA I&I frequency rate rather than creating another
measurement.




                                              27
